APPENDIX A

SUPREME COURT OF GEORGIA
Case No. S21C0007
March 15, 2021

The Honorable Supreme Court met pursuant to adjournment.

The following order was passed.
TIM SUNDYv. FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC. et al.
The Supreme Court today denied the petition for certiorari in this case.
All the Justices concur, except Bethel, Ellington, and McMillian, JJ.,
disqualified.

Court of Appeals Case No. A20D0398
SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.
/s/ Therese S. Barnes, Clerk

1A

APPENDIX B
Court of Appeals
of the State of Georgia

ATLANTA, July 07, 2020

The Court of Appeals hereby passes the following order

A20D0398. TIM SUNDY v. FRIENDSHIP PAVILION ACQUISITION COMPANY
LLC et al.
Upon consideration of the Application for Discretionary Appeal, it is ordered that it
be hereby DENIED.

LC NUMBERS:
2015CV1366

Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, July 07, 2020.
I certify that the above is a true extract from the
minutes of the Court of Appeals of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.

/s/ Stephen E. Castlen, Clerk

2A

APPENDIX C
IN THE SUPERIOR COURT' OF HALL COUNTY
STATE OF GEORGIA
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC,
Plaintiff,
Civil Action No. 2015-CV-1366B
v.
MEDITERRANEAN DINING GROUP, INC.,
DAVID SUNDY AND TIM SUNDY,
Defendants
FINAL JUDGMENT
This action came before the court on December 3, 2018, with the Honorable
Martha C Christian, presiding.
The issues having been duly heard in an evidentiary proceeding and a decision
having been duly rendered, for reasons set forth on the record by the Court:
The Court issues this Final Judgment disposing of this case in its entirety as
follows:
That the plaintiff Friendship Pavilion Acquisition Company recover of the
defendants Mediterranean Dining Group, Inc., Tim Sundy, and David Sundy,
jointly and severally, the sum of $394,617.47, with post-judgment interest thereon
at the rate- of percent as provided by law. This sum is comprised of $ 188,485.90 in
unpaid lease obligations and contractually specified interest of $206,131.57.
Dated this 3rd day of December, 2018.

/s/ Martha C. Christian
The Honorable Martha C. Christian
Presiding
Judge Hall County Superior Court,
by Assignment

3A

APPENDIX D
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011

March 22, 2021

Mr. Tim Sundy
227 Sandy Springs Place Suite D-465
Sandy Springs, GA 30328
Re: Tim Sundy
v. Friendship Pavilion Acquisition Company, LLC,
et al. No. 20-6868
Dear Mr. Sundy:
The Court today entered the following order in the above-entitled case:
The motion of petitioner for leave to proceed in for ma pauperis is denied,
and the petition for a writ of certiorari is dismissed. See Rule 39.8. As the petitioner
has repeatedly abused this Court's process, the Clerk is directed not to accept any
further petitions in noncriminal matters from petitioner unless the docketing fee
required by Rule 38(a) is paid and the petition is submitted in compliance with Rule
33.1. See Martin v. District of Columbia Court of Appeals, 506 U.S. 1 (1992) (per
curiam).
Sincerely,
/s/ Scott S. Harris

4A

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA

Friendship Pavilion Acquisitions Co., LLC
Plaintiff

)

Civil Action
No. 2015- CV-1366B
)

vs.
Mediterranean Dining Group, Inc.,
David Sundy and Tim Sundy,
Defendants

im

)

c.'i

r:

!
!

VS.

)

Michael Weinstein,
Arsenal Real Estate Fund H,
Thomas Ling,
Gary Picone,
Defendants in Counterclaim

)
)

ORDER ON DEFENDANTS’ MOTION TO SET ASIDE
Procedure
On December 3, 2018, a Final Judgment was entered in this case.
On December 13,2018, Defendants, Tim Sundy and David Sundy (Defendants) filed a pleading titled
“Motion Pursuant to O.C.G.A. 9-11-60(d)(2)(3) To Set Aside the December 3,2018 Void Final Judgment
for Fraud Upon the Court and/or Non-Amendable Effects.”
Then on January 2, 2019, Defendant, Tim Sundy filed a Notice of Appeal to the Supreme Court of
Georgia.
Also, on January 2, 2019, Defendant, Tim Sundy filed an Application for Appeal Pursuant to
O.C.G.A. Section 5-6-35 in the Supreme Court of Georgia. (S19602).
On January 15,2019, Plaintiff filed a Response to Defendants’ Motion to Set Aside.
On January 31, 2019, the Supreme Court transferred the Application to the Court of Appeals of
Georgia (A 19D0345).
On February 11,2019, this Court entered an Order staying the case until determination of the notice of
appeal.
Page 1 of 12

5A

-----On-February H, -2(H9, this-CourLenteredan'Order setting a hearing on Defendant TinTSundy’s
Motion for Leave to Proceed in Forma Pauperis, which Motion was filed on February 8, 2019 and was in
regard to the Notice of Appeal.
On March 7, 2019, a hearing was held on Defendant’s Motion to Proceed in Forma Pauperis. Even
though he received proper and legal notice, Mr. Tim Sundy did not appear. On March 13,2019, an Order
was entered denying Defendant’s Motion for Leave to Proceed in Forma Pauperis.
On March 15, 2019, The Court of Appeals dismissed Defendant’s application for discretionary review
for lack ofjurisdiction. Defendant, Tim Sundy, filed a Petition for Certiorari, which was denied by the
Supreme Court of Georgia on November 4,2019. (S19C0943).
On January 28,2020, a Notice of Show Cause Hearing Regarding Itemized Appeal Costs was set for
March 2,2020. Defendant was given proper and legal notice of the hearing but did not appear.
On March 9, 2020, an Order Dismissing Notice of Appeal Pursuant to O.C.G.A. Section 5-6-48(c) was
entered and in that Order the stay was lifted.
In each enumeration raised by Defendants in this Motion, Defendants claim “[t]he fraudulent or void
final Judgment and the closing of this case did not cure the non-amendable defect which appears upon the
face of the record or pleadings.” They cite O.C.G.A Section 9-1 l-60(d)(2)(3) and ask that the judgment
be set aside for “fraud upon the court and/or non-amendable effects.”
O.C.G.A. Section 9-1 l-60(d) provides:
(d) Motion to set aside. A motion to set aside may be brought to set aside a judgment
based upon:
(1) Lack of jurisdiction over the person or the subject matter;
(2) Fraud, accident, or mistake or the acts of the adverse party unmixed with the
negligence or fault of the movant; or
(3) A nonamendable defect which appears upon the face of the record or pleadings.
Under this paragraph, it is not sufficient that the complaint or other pleading fails to state
a claim upon which relief can be granted, but the pleadings must affirmatively show no
claim in fact existed.
I. Claims of Fraud, Accident or Mistake
“The overreaching principle of seeking relief under O.C.G.A. § 9-11-60(d)(2) is that it may be granted
only where the grounds are unmixed with the negligence or fault of the movant.” Winnersville Roofing
Co. v. Coddington, 283 Ga. App. 95 at 97 (2006). See also, Smith v. Mann, 200 Ga. App. 701, 702
(1991). After the first hearing in this case neither of the Defendants attended pretrial hearings, the
calendar call or the trial. They have objected to just about every ruling made by this court and every
order entered by this court. Moreover, they were given many notices by the Court in written orders that if
they did not attend, the Court could rule against them. Specifically, in the Notice OfPretrial Conference
filed on September 18, 2018, they were ordered to appear and “should they not appear or not comply with
Page 2 of 12

6A

judgment entered against said party or parties.” In an Order entered on November 8, 2018, they were
ordered to attend a calendar call on November 26, 2018 and announce, or their “answer and counterclaim
and all claims will be dismissed for want of prosecution.” The order further provided that “[a]ll claims of
Plaintiff and /or any Defendants’ Counterclaim and any other claims remaining in this case shall be tried
beginning on December 3,2018.”
Therefore, any enumeration that alleges fraud, accident or mistake is not unmixed with the negligence
or fault of Defendants and is not cause for setting aside the final judgment.
2. Nonamendable Defect Which Appears on the Record or Pleadings
Defendants have the burden of showing that because of a nonamendable defect that appears on the
face of the record or pleadings, the judgment entered in this case was void.
In their Motion to Set Aside, Defendants enumerate several errors. The Court will address each
enumeration below.

A. There is a nonamendable defect which appears upon the face of the record or pleadings
because “Defendants were not afforded equal protection of the law for their 16 March 2018
Brown v. Johnson petition.”
It is important to note what happened in the case prior to Defendants filing the March 16, 2018
document.
When appointed to hear this case in an Order entered on October 6, 2016, this Court began an attempt
to unravel the nature of the case, the pleadings, what persons were parties to the case and the claims of
those parties. The case was complicated by the fact that it had been removed to and then remanded from
Federal Court and documents filed by the parties in Federal Court had not been filed in this record. After
obtaining and reviewing the pleadings, the Court determined that the best course of action was to set a
status conference and hearing on pending motions. The Court entered a Rule Nisi order on November 8,
2016 ordering the parties to attend a hearing set for December 8, 2016. The Order directed all persons
named in the case caption at that time to attend and address several matters. One of the issues was which
persons were proper parties in the case. After being served with this Order, Defendants began what
would become a pattern in the case. On December 2,2016, they filed a “Joint Objection”, in which they
objected to the Court having a hearing at all and stated that the “Rule Nisi gives the appearance of bias
and exhibits the malpractice, oppression and tyrannical partiality of the Court in its effort to get Judge
Fuller out of a hole, dump the Sundys into the appellate court and then wash their hands of the matter.”
The Court held the hearing on December 8,2016. Tim Sundy appeared and argued, but neither David
Sundy nor the attorney for Defendant Mediterranean Dining Group appeared.
On December 22,2016, this Court entered several orders on the issues that were addressed at the
December 8, 2016 hearing. On December 30,2016, Defendants filed another “Joint Objection”. Again,
Defendants objected to this Court holding any hearing and not ruling in their favor immediately. They

Page 3 of 12

7A

specifically'objected'to~th'e''CSiIft’s Rule'Nisi entered on December 22, which ordered parties to appear on
January 11,2017 for a hearing on the Motions for Summary Judgment and other issues.
On January 5,2017, Defendant David Sundy filed a “Notice of Filing Brown v. Johnson Action by
David Sundy” and filed an amendment to that notice on January 7, 2017. In the Notice, David Sundy
stated that he had filed a separate civil action in Hall County Superior Court naming this Judge, Judge
Andrew Fuller, and Charles Baker, Clerk of Superior Court as parties (C.A. No. 2017CV000031A). On
January 10,2017, Defendants also filed a Joint Motion for Involuntary Disqualification of Martha C.
Christian. The motion to recuse was assigned to another Judge to determine as provided by U.S.C.R.
25.3. and the hearing set for January 11,2017, was continued. On March 21,2017, an Order denying the
motion to recuse was entered.
The record reflects that after the denial of the motion to recuse, Defendants continued to file objections
to this Court’s rulings, both in this case and with the Supreme Court of Georgia and the Court of Appeals.
Every time this Court set a hearing, Defendants refused to attend. Defendants took the position that this
Court was disqualified from hearing the case because it lost jurisdiction for not ruling on certain motions
within the 90 days required by O.C.G.A. Section 15-6-21. On May 3, 2017, Defendants filed a “Joint
Objection” raising this issue. This Court entered an Order regarding the objection on May 18, 2017.
On August 16,2017, Defendants filed another “Objection” claiming that this Judge was disqualified
from hearing the case. This document was filed at 12:22 p.m. before a motion hearing set in the case
which began at 1:30 p.m. on that date.
On October 17,2017, the Court entered several Orders which addressed the various issues raised by
pending motions and in each of those Orders the Court again addressed Defendants’ claim that this Court
was disqualified and had no jurisdiction to hear the case. On November 29,2017, Defendants filed
another “Joint Objection” to the Court’s most recent order. In that objection, Defendants moved for “the
involuntary [disqualification of Martha C. Christian from the above entitled matter for lack of
jurisdiction and venue.”
Undeterred by the Court denying their Motions, Defendants filed the March 16,2018 document, titled
“Motion: Verified Petition for an Order in the Nature of Writ of Injunction Pursuant to Brown v. Johnson
and Motion for Declaratory Judgment.” This document was in reality another effort to remove this Judge
from the case. In this document, Defendants attempted to add new parties and new claims totally
unrelated to the original claims in this case. In that document, they sought to bring in as parties: this
Judge; the Clerk of Superior Court; Judge Jack Partain; Judge Brenda Weaver; Chris Carr, the Attorney
General for the State of Georgia; and “unknown names, Hall County’s liability carrier, c/o Peggy
Kanaday.” On May 3,2018, this Court entered an Order denying Defendants’ attempt to add new
unrelated claims and parties to this case.
First of all, a mandamus is not a proper way to seek to remove a judge from a case. Gray v.
Manis, 822 Ga. 336,337 (2007). Furthermore, mandamus “is not an available remedy to require [a
judge] to perform h[er] judicial function in a manner different from the way [s]he has performed it.”
Kappelmeier v. lannazzone, 279 Ga. 131, 131-132(2005). Nevertheless, in this case, the Court did not
reach the merits of Defendants’ claims raised in the attempt to file a mandamus. The Court ruled
pursuant to O.C.G.A. Section 9-11-15(d) that the “Motion” was an attempt to add a supplemental
Page 4 of 12

8A

no effect until it was allowed. Kelly v. Pierce Roofing,
Inc., 220 Ga. App. 391, 393 (1996). The Court ruled further that Defendants could not add parties to this
case. O.C.G.A. Section 9-11-21; Valdosta Hotel Properties, LLC v. White, 278 Ga. App. 206 (2006).
In Brown v. Johnson, 251 Ga. 436 (1983), cited by Defendants, the Supreme Court of Georgia held
that a petition for mandamus “may be filed in the appropriate superior court.” It then held that a superior
court named as a respondent would disqualify regarding the petition and another superior court judge
would be appointed to hear and determine the matter. At 437. This case and the cases that have
followed, do not stand for the proposition that a petition for mandamus can be filed against a judge in a
pending case. If the request to add parties then goes to a new judge and that judge allows parties to be
added, it would be tantamount to filing a motion to recuse without following U.S.C.R 25, as the sitting
judge would have to step down, having been added as a party. This would make no logical sense, as such
a petition could be filed in every pending case to delay the proceeding, to attempt to disqualify the sitting
judge and to attempt to judge shop. This is why U.S.C.R 25.3 gives the sitting judge the authority to first
determine the timeliness of the motion to recuse and the legal sufficiency of the affidavit and to make a
determination whether recusal would be warranted. Also, U.S.C.R 25.2 provides that “[a]negations
consisting of bare conclusions and opinions shall not be legally sufficient to support the motion or
warrant further proceedings.” “A recusal motion supported by an affidavit containing completely
unsubstantiated allegations ofjudicial bias cannot be used as a tool for delay and to judge shop.” Gray v.
Manis, 282 Ga. 336 at 337(2007).
The Court’s ruling on this issue was not in error and therefore, there is no nonamendable defect
appearing on the face of the record or pleadings.
B. There is a nonamendable defect which appears upon the face of the record or pleadings for
Defendants’ claim of removal from office for violations under O.C.G.A. Section 15-621(b)(c)(d).
Again, as stated above, this argument has been made many times in this case and each time it was
raised, the Court addressed the issue. While O.C.G.A. Section 15-6-21(b) does require a judge to rule on
all matters submitted to the Court within 90 days, the remedy if a judge does not so rule is not that the
Court loses jurisdiction. See Cobb County v. Robertson, 314 Ga. App 455 (2012); Hawkins v Blair, 334
Ga. app. 898 (2015).
Therefore, this enumeration has no merit.
C.

The final judgment was fraudulent or void for the nonamendable defect which appears
upon the face of the record or pleadings for Defendants’ claim of permissive counterclaims
with a separate trial.

Defendants’ assert that their counterclaim was “permissive” as defined in O.C.G.A. Section 9-11-13(b)
and that they were entitled to a separate trial. However, a review of the counterclaim set forth in the
document titled “AMENDED COUNTERCLAIM AND THIRD-PARTY PLAINTIFFS/INTERVENOR
DEFENDANTS/GUARANTORS COMPLAINT”, filed on June 12, 2017, shows that Defendants’
counterclaim was not permissive. See Steve A. Martin Agency, Inc. v. Planters FIRST Corp., 297 Ga.
App. 780, 782-784 (2009).
Page 5 of 12

gA

— In any~event,~the recordshowsDefendants were ordered to appear on two separate dates for a pretrial
conference but chose not to attend either. They could have sought a separate or bifurcated trial at that
time but chose not to appear at the pretrial conference or present a proposed pretrial order. In addition,
they were given proper and legal notice of a calendar call and they were ordered to appear. In the order
setting the calendar call for November 26,2018, Defendants were given notice that appearance was
mandatory and if a party did not appear and announce, then his complaint or answer and counterclaim and
all claims would be dismissed for want of prosecution. Defendants chose not to appear. Therefore, on
November 26,2018, the Court dismissed Defendants’ counterclaims and all claims against Plaintiff and
Defendants in Counterclaim. The Order of dismissal was entered on December 3,2018, nunc pro tunc,
November 26,2018. Thus, there were no counterclaims pending on December 3, 2018.
Finally, the trial of the case was set for December 3,2018. Defendants were given proper and legal
notice of the trial. They chose not to appear for trial.

D. The final judgment was fraudulent or void because of the nonamendable defect which
appears upon the face of the record or pleadings for Defendants’ claim of third-party status
granted by federal court
This argument has no merit. Defendants were recognized as intervenors in this case in an Order
entered on December 22, 2016. The Motion to Intervene filed by Defendants in Federal Court after
removal, was never filed in this court, so this Court has no idea of its contents. Defendants were put on
notice by order of this court entered on April 11, 2017 that the parties were relying on documents that
were not filed in this court. They were given ample opportunity to have those documents made part of the
record in this case. Defendants chose not to file the Motion to Intervene. They did file a copy of the
Federal Court order allowing them to intervene as Defendants in the Federal Court case. This order
simply stated that the Motion to Intervene was granted, however, since the Motion is not in this file, this
Court has no idea what the Federal Court intended with the order other than to allow Defendants to be
intervenor defendants. Also, there is nothing in the record in this case that shows that they were allowed
to add parties or new claims when the action was in Federal Court.
Furthermore, this Court did not “summarily ignore” the Federal Court order. El Chico Rests. V.
Transp. Ins. Co., 235 Ga App 427, 429 (1998). The record shows that this Court held a hearing on
December 8, 2016 during which the Court considered the Federal Court order. Mr. Tim Sundy was
present at this hearing, Mr. David Sundy did not appear. At the hearing, the Court took judicial notice of
the Federal Court Order. The Court stated:
I’ve read the case that Mr. Sundy cited, and it appeared that the Court can reconsider the
issue of the intervention but that—and I’ve looked at the intervenor statute, and it appears
that this is a permissive intervention, and the Court is going to allow it. I don’t hear your
objection, and so I’m going to allow David Sundy and Tim Sundy and find they are
proper intervenors in the Friendship Pavilion case. So that’s really not an issue. (12/8/16
Tr. pg. 18).
Plaintiff’s attorney responded:
Page 6 of 12

10A

jfeah. Thc^iriy.thing I.would-just-sayryonrHonor, is we just reserve any rijpifsThat we
have as far as them being intervenors or defendants or counterclaim plaintiffs. But as far
as being into the case, we do not object. (12/8/16 Tr. pg. 18).
On October 30, 2017, this court entered an order which addressed Defendants’ status. The court ruled
that Defendants’ “AMENDED COUNTERCLAIM AND THIRD-PARTY PLAINTIFFS/INTERVENOR
DEFENDANTS/GUARANTORS COMPLAINT” was deemed to be a request to add additional parties as
Defendants in Counterclaim. The Court allowed the Amendment and the addition of four parties as
Defendants in Counterclaim.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.

E. The final judgment was fraudulent or void because of the nonamendable defect for
Defendants’ claim of adding parties as a matter of law.
This argument has no merit. The record shows that Defendants were allowed to add parties, as noted in
paragraph D. above.
F. There is a nonamendable defect because Defendants were deprived of their right to default
in the state court proceedings.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
G. The final judgment was fraudulent or void because of the nonamendable defect for
Defendants’ claim of Tim Sundy’s Lis Pendens remaining pending throughout the duration
of an appeal.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
H. The final judgment is fraudulent or void because of a nonamendable defect for Defendants’
claim of Plaintiff FPAC currently being in default in Federal Court and having admitted
that Plaintiff is in default in Federal Court.
Defendants offer no admissible evidence to support this claim. They allege that there was a
pending case in Federal Court. This record shows that on November 14,2018, Defendants filed
“Intervenors’ Standing Objections to all Void Orders and Proceedings and Notice to the Court of
Pending Matters in Federal Court.” This document was filed after they had notice of a calendar call
and hearing set in this case for November 26,2018 and a trial set for December 3,2018. In this
“Objection” Defendants complained that because of this Court’s improper procedure and rulings, they
were forced to file a lawsuit in the United State District Court for the Norther District of Georgia.
They objected “to the State court for not having separate trial and to disqualified Judge Martha
Christian for ongoing schemes while federal action is construed as a separate trial.” A document they
Page 7 of 12

11A

2018. Defendants’ bare allegations in their “Objection” are not evidence.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.

I. The final judgment was fraudulent or void because of the nonamendable defect with
Plaintiff presenting back rent owed, yet Plaintiff also presenting testimony/evidence to the
Court of road construction and receipt of reduced rent payments, with the Court willfully
failing to recognize and consider a part of the lease.
Defendants are really arguing a mistake or fraud on the court under 9-11-60(d)(2). Their failure to
attend trial and present evidence was their neglect and fault and the judgment cannot be set aside on
such a ground.
This claim is not a nonamendable defect that appears on the face of the record or pleadings.
J. The final judgment was fraudulent or void because of the nonamendable defect with
Plaintiff presenting back rent owed while making misrepresentations to the Court about the
nature of Defendants’ reduced rent payments.
Defendants have presented no affidavits, depositions, sworn testimony or other admissible evidence
that proves Plaintiff’s witness at trial testified falsely. Defendants had proper and legal notice to attend
trial and chose not to do so, therefore they waived their right to present evidence. Defendants will not be
allowed to use O.C.G.A. Section 9-11-60 to attack the credibility of witnesses at a trial they chose not to
attend. Defendants are really arguing a mistake or fraud on the court under 9-1 l-60(d)(2). Their failure
to attend trial and present evidence was their neglect and fault and the judgment cannot be set aside on
such a ground.
This claim is not a nonamendable defect that appears on the face of the record or pleadings.
K. The final judgment was fraudulent or void because of a nonamendable defect for
Defendants’ claim of not being protected under Art. 1, & 1, para. 2 of Georgia’s
Constitution. Defendants were not afforded equal protection in the filing of documents with
the clerk of court.
Defendants claim they were “not afforded equal protection in the filing of documents with the
Clerk of Court, in the application of existing law to Defendants’ claims, in the protection of
Defendants’ constitutional and statutory rights, and even the Attorney General failed his duties and
joined in the commissions of crimes against Defendants with Judge Christian and co-conspirators.”
First, the Court may only look to the record and pleadings in this case. Again, Defendants have not
presented any evidence to support this Motion. Generally, Defendants claim that they were not
allowed to file documents without using the U.S. mail. They also claim that the Clerk of Court
withheld documents from the record “for purposes of fraud upon the court.” and that the Clerk of
Court “intentionally and repeatedly tampers with citizens’ papers in every case, and the record of
every case.”
Page 8 of 12

12A

The specinc allegations made in the Motion are that a document that is shown marked filed on
October 23, 2018, titled “Intervenors’ Objection to the Court’s 18 September Orders” was withheld
from the docket/record for the purpose of fraud upon the court; and a document shown as filed on
November 14, 2018, titled “Intervenors’ Standing Objections to All Void Orders, Proceedings and
Notice to the Court of Pending Matters in Federal Court”, was withheld from the docket/record by the
Clerk for almost two weeks. There is also an allegation about a missing pleading dated December 20,
2016.
i.

The October 20.2016 document.

On May 17,2017, Defendant Tim Sundy filed an affidavit regarding a “Joint Objection” he
alleged was delivered to the Clerk of Court on December 20, 2016. In his affidavit he alleged that
when he appeared at the Clerk’s office in May of 2017 and asked for a certified copy of the
document, the Clerk could not find the document in the file. He stated that “the missing document is
causing Affiant as well as other parties to be deprived of a full and complete record in circumstances
where Affiant appeals his case or redresses matters in a federal court.”
On June 5, 2017, the Clerk of Court for Hall County Superior Court filed Civil Action No. 2017
CV 1125 pursuant to O.C.G.A. Section 24-11-2 seeking to establish the December 20,2016
“Objection” as a lost document. On July 10, 2018, an order was entered directing the Clerk to restore
the December 20,2016 document to the file in this case. The document was then filed of record in
this case as of December 20, 2016.
The December 20,2016 “Objection”, shows that it was a pleading filed by Defendants to assert
that Plaintiff had waived its right to present evidence regarding the pending Motion for Summary
Judgment; that the court had no right to set a hearing or hear oral argument; and that they were
“entitled to a ruling on Summary Judgments) being issued without a hearing and entry as a matter of
law.” These issues had been raised prior to and were raised after this “Objection” was allegedly filed.
Prior to the December 8, 2016 hearing Defendants filed an ‘Objection” wherein they objected to a
summary Judgment hearing being held on December 8. They asserted the position that no party had
requested a hearing; that Plaintiffs had waived its right to present evidence on the Motion and that
and that they were entitled to a ruling on Summary Judgments(s) without a hearing and “entry as a
matter of law.” Considering the objection, the Court stated that since the Rule Nisi setting the hearing
did not give any notice regarding Motions of Summary Judgment, such Motions would not be heard
that day.
However, on December 8, the Court also held a status conference and the Court and parties
discussed setting a hearing on the Motions for Summary Judgment. A date for the hearing was
discussed and it was agreed that the hearing would take place on January 11,2017. Mr. Tim Sundy
stated: “We’ll do the 11th, your Honor.”
On December 15, 2016, Defendant Tim Sundy filed an “Objection” regarding the December 8
hearing. While this “Objection” was also filed in another case pending in Hall County Superior
Court, it had this case number on it, so the Clerk also filed it in this case. In that Objection, he

Page 9 of 12
13A

“cannot present evidence.” He stated again that no party had requested a hearing.
On December 22,2016, a Rule Nisi was entered setting January 11,2017 as for a hearing on all
Motions, including Motions for Summary Judgment. On December 30,2016, Defendants filed a
“Joint Objection”. In this document, defendants complained about the entry of the Rule Nisi and
stated that Plaintiff waived its right to present evidence. On January 10,2017, Defendants filed a
“Joint Motion for Involuntary Disqualification of Martha C. Christian”. Therefore, the hearing set for
January 11, 2017 was continued.
On April 11,2017, after Defendants’ motion to recuse was denied by another judge appointed to
hear it, this Court entered separate orders denying each motion for summary judgment. The motions
were decided without a hearing, as was requested by Defendants.
Therefore, while the December 20,2016 “Objection” was not shown on the docket as filed in this
case, until it was restored in July of 2018, the Court had been made aware of Defendants’ objections
in three other documents prior to the time the Court ruled on the merits of both Motions. Defendants
had their objections considered and no hearing was held, so they suffered no harm.
Additionally, while Defendants filed numerous appeals, all the appeals were dismissed. The
complaint about the appellate record being inaccurate has no merit because they could have filed a
request pursuant to O.C.G.A. Section 5-6-41(f) to seek to complete the record.
ii.

The October 23.2018 document.

As for the October 23,2018 “Objection”, Defendants present no evidence that this document was
withheld from the docket. The record shows that on November 8, 2018, this Court entered an Order
regarding this Objection.
iii.

The November 14. 2018 document.

As for the November 14,2018 “Standing Objection”, the record shows that on November 26,
2018, this court held a calendar call and hearing in the case. At the hearing, the Court put on the
record that “I have a document that was sent to the Clerk of Court, and it is in this case to be filed.”
The Court stated that she had “reviewed this document and to the extent that it again objects to this
Court’s jurisdiction, it is denied.” Regarding the document, the Court also stated:
“It makes no claim, it is simple a notice, as has been the pattern in that the Defendants,
David Sundy and Tim Sundy, file documents prior to the hearing and don’t show up for
the hearing. I am going to ask that this document be filed in the Clerk’s office in this
case and I will deem it filed as of the date that it was received, which apparently was
November 14th of this year.”
iv.

General equal protection claim.

As for Defendants’ general claim that they were denied equal protection, they have not pointed to
anything in this record to show that they were not allowed to file documents in person, nor have they
Page 10 of 12

14A

submitted“an affidavit setting torth evidence that the Sheriff or any person kept them from filing
documents in the Clerk’s office.
Some of the pleadings in this case show that Defendants have filed other cases in the Superior
Court of Hall County. So, the Court is aware that at one point, in Civil Action Case No. 2016 CV
000982 , filed by Tim Sundy, there was an Order entered by the Chief Judge of the Northeastern
Judicial Circuit which provided that “[p]rior to stamp filing this pleading or any other pleading
presented for filing in the above-captioned and numbered case by Tim Sundy, the judges of the
Northeastern Judicial Circuit determined that the undersigned would review any pleading presented
for filing by Tim Sundy in the above-captioned and numbered case or any other case pending in the
Superior Court of Hall County wherein Tim Sundy is a party.” The Judge stated it was “for the
purpose of allowing the court to determine whether a pleading presented for filing is a new case or
properly filed in an existing case.” The procedure implemented by the Chief Judge applied to Tim
Sundy and not David Sundy. Neither Defendant has shown that this procedure in any way kept them
from filing documents in this case and therefore, as discussed above, Defendants suffered no harm
from this procedure. This Order has not been filed in this case.
Even if this Court were to take judicial notice of an order in another case entered by another judge,
“ no person is free to abuse the courts by inundating them with frivolous suits which burden the
administration of the courts for no useful purpose.” In re Carter, 235 Ga. App. 551, 552 (1998). The
limitation imposed on Defendant Tim Sundy’s ability to immediately file documents in pending
litigation does not totally deprive Tim or David Sundy of meaningful access to the courts and is
reasonable under the circumstances. Smith v. Adamson, 226 Ga. App. 698,670 (1997). A review of
the record in this case alone will reveal the numerous pleadings filed by Defendants which repeat the
same arguments and objections. Furthermore, Defendant Tim Sundy filed documents in Case No.
982 showing the caption of 982 but also having the file number for this case on it as “Companion
Civil Action Case No.: 2015-CV-001366A”. The Clerk filed the 982 document in this case and then
Defendant David Sundy filed an objection to the Clerk filing the documents as marked and demanded
that the document be removed from the file. Likewise, Defendants filed a document showing the
caption of 1366, but also having the file number for 982 as “Related Civil Action Case No.
2106CV000982.” The record also shows repeated attempts to improperly appeal most of the Orders
of this Court; the filing of a motion to recuse this Court; the filing of emergency motions with the
Georgia Court of Appeals, the Supreme Court of Georgia and with the Attorney General for the State
of Georgia.
Again, no restriction on the filing of any documents in this case was imposed by this Court and
any restriction that may have been imposed by the Chief Judge did not influence Defendants’ access
to the Court in this case.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
L. The final judgment was fraudulent or void because of a nonamendable defect for
Defendants’ claim of standing their ground.
This claim is summed up by Defendants’ allegation that the Court has

Page 11 of 12

15A

-purpGsefuUy-pkGed43efendaHts-in-afl-unGonstitutiGnal-e0nditiGH-ifDefendantsstandtheir
ground, Defendants lose; if Defendants acquiesce to the fraudulent activities of the Court
and its officers and to the fraud upon the court perpetrated by Plaintiff, Defendants lose.
Judge Christian has exercised defacto-powers by tyrannical partiality in a seizure of
jurisdiction when she is a disqualified Judge and the Court itself abdicated jurisdiction
over pro se Defendants and their claims.
Again, Defendants have repeatedly claimed in several pleadings throughout this case that this Judge is
disqualified from presiding on the case. Defendants have also filed “Objections” to just about every order
and every action this court has taken. In an Order entered on November 8,2018, the Court addressed
another “Objection” filed by Defendants. In that Order the Court stated:
This Court continues to have jurisdiction in this case, as it has ruled on more than one
occasion. However, Defendants proceed to ignore orders of this Court even though they
have been warned that their pleadings may be dismissed. If, as Defendants... claim, this
Court does not have jurisdiction, or if they complain that any other ruling by this
court.. .was in error, if they comply with Georgia law, they may have the right to appeal
when a final order is filed in this case.

Defendants thoroughly and repeatedly raised their objections which preserved their right to raise them
in an appeal of the final judgment in this case, but these objections did not excuse them from attending the
pretrial conference, the calendar call or the trial. David Sundy chose not to file an appeal at all. Tim
Sundy filed a notice of appeal and a petition for discretionary appeal. The discretionary appeal was
denied, and Tim Sundy abandoned the Notice of Appeal.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
Conclusion
Therefore, for all of the reasons stated above, Defendants’ Motion to Set Aside is DENIED.

SO ORDERED, this 26 day of May 2020

Martha C. Christian
Judge Hall County Superior Court
By Assignment

Page 12 of 12

16A

